               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Relationship Between Business
          Connect and Post Office
                Performance

         Management Advisory Report




                                              December 9, 2013

Report Number MS-MA-14-001
                                                                      December 9, 2013

                                             Relationship Between Business Connect
                                                        and Post Office Performance

                                                         Report Number MS-MA-14-001



BACKGROUND:
Postmasters can play a key role in            by operational challenges affect
growing the U.S. Postal Service’s mail        postmasters' Business Connect
volume and revenue. The Postal                performance. Our objective was to
Service’s Business Connect® program           evaluate the relationship between Post
was designed to engage postmasters,           Office performance and Business
station managers, and branch managers         Connect performance.
in generating revenue and strengthening
relationships with small business             To accomplish our objective, we
customers. Under Business Connect,            collected and analyzed data comparing
postmasters are encouraged to contact         Post Office operational performance,
local businesses each year via group          such as the number of customer
meetings, lobby events, or face-to-face       complaints, wait time in line, and
customer meetings. Postmasters                employee grievances, to Business
reported about $265 million in estimated      Connect performance metrics, including
annualized revenue through this               the number of Business Connect
program in fiscal year (FY) 2012 and          contacts and estimated generated
about $247 million in FY 2013.                revenue.

In a June 2013 audit, the U.S. Postal         WHAT THE OIG FOUND:
Service Office of Inspector General           We found no relationship between Post
reported on small business growth and         Office operational performance and
identified low- and high-performing           Business Connect performance for the
postmasters in the Business Connect           variables we selected. Therefore,
program. When asked about the                 neither lower nor higher performance in
variation in postmasters’ performance,        these Post Office operational areas
Postal Service officials asserted that        necessarily precludes postmasters from
operational challenges limited the time       achieving success in their Business
certain postmasters had available to          Connect activities.
conduct Business Connect activities.
These challenges included responding          WHAT THE OIG RECOMMENDED
to customer complaints and staff              We did not make any recommendations
grievances, managing overtime hours           in this report. Management agreed with
and leave, and ensuring timely                this report and they are not required to
completion of carriers’ routes.               comment on its contents since there
                                              were no recommendations.
This report analyzes in greater detail the
assertion that time constraints imposed       Link to review the entire report
December 9, 2013

MEMORANDUM FOR:            WILLIAM C. RUCKER III
                           VICE PRESIDENT, SALES




FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Performance

SUBJECT:                   Management Advisory Report – Relationship Between
                           Business Connect and Post Office Performance
                           (Report Number MS-MA-14-001)

This report presents the results of our review of the Relationship Between Business
Connect and Post Office Performance (Project Number 13RO009MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director, Sales
and Marketing, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Relationship Between Business Connect                                                                             MS-MA-14-001
 and Post Office Performance



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Relationship Between Operational Factors and Business Connect ................................ 2

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objective, Scope, and Methodology ............................................................................ 5

   Prior Audit Coverage ................................................................................................... 6
Relationship Between Business Connect                                                                   MS-MA-14-001
 and Post Office Performance


Introduction

This report presents the results of our review of the relationship between Business
Connect and Post Office performance (Project Number 13RO009MS000). Our objective
was to evaluate the relationship between Post Office performance and Business
Connect performance. See Appendix A for additional information about this review.

In a June 2013 report on the U.S. Postal Service’s efforts to grow small business
revenue, the U.S. Postal Service Office of Inspector General (OIG) found a wide range
of performance from postmasters in the Business Connect ® program.1 The Business
Connect program was designed to engage postmasters in generating revenue and
strengthening relationships with small business customers. 2 As part of the program,
postmasters are encouraged to contact local businesses each year via group meetings,
lobby events, or face-to-face customer meetings. Postmasters reported about
$265 million in estimated annualized revenue through the Business Connect program in
fiscal year (FY) 2012 and about $247 million in FY 2013.

We identified a large segment of postmasters with low performance in the Business
Connect program. For example, 13,050 postmasters reported an average of $10 of
revenue per Business Connect contact in FY 2012 compared to $26,724 per contact for
a separate group of 196 postmasters. Furthermore, 9,639 postmasters in the group with
lower revenue reported no Business Connect revenue and 1,204 reported no Business
Connect contacts.

When asked about this wide variation in performance, Postal Service officials asserted
that operational challenges limited the time certain postmasters have available to
conduct Business Connect activities. These challenges include responding to customer
complaints and staff grievances, managing overtime hours and unscheduled leave, and
ensuring timely completion of carriers’ routes.

This report analyzes in greater detail the assertion that time constraints imposed by
operational challenges affect postmasters' Business Connect performance. Specifically,
we collected data and performed regression analyses3 on various office operational and
Business Connect performance variables described in Figure 1.




1
  Small Business Growth (Report Number MS-AR-13-009, dated June 20, 2013) analyzed Business Connect data
from 17,658 postmasters at Level 18 and above post offices. The Postal Service determines Post Office levels based
on factors such as workload, revenue, delivery points, and number of employees – generally, the higher the level, the
larger the office. The report divided the results into three groups according to average revenue generated per
Business Connect activity. The top 1 percent of postmasters generated more than $10,000 of revenue per activity,
25 percent generated between $78 and $10,000 per activity, and 74 percent generated less than $78 per activity.
2
  Employee Engagement Program Guidebook, Version 14, page 4, November 16, 2012.
3
  A statistical tool for investigating relationships between variables to ascertain the causal effect of one variable on
another. We used regression analyses to investigate possible relationships between selected operational factors and
Business Connect performance.
                                                              1
Relationship Between Business Connect                                            MS-MA-14-001
 and Post Office Performance


              Figure 1: Summary of FY 2012 Data Used in the OIG Analysis

  Post Office Operational Performance               Business Connect Performance

 Description: Post Office operational              Description: Factors that reflect the
 factors that could reasonably be                  performance of postmasters in
 expected to impact a postmaster's ability         conducting Business Connect
 and time to conduct Business Connect              activities.
 activities.
                                                   Basis for selection: Information from
 Basis for selection: Information from             Postal Service officials and our own
 Postal Service officials and our own              analysis.
 analysis.
                                                   Business Connect performance
 Post Office operational performance               variables:
 variables:                                         Number of Business Connect
  Number of employee grievances.                      contacts.
  Percentage of carriers returning after           Estimated annual Business
     5 p.m.                                            Connect revenue.
  Unscheduled leave hours.
  Customer wait time in line (WTIL).
  Retail window staffing efficiency.
  Overtime hours.
  Penalty overtime hours.
  Number of customer complaints.
Source: OIG analysis of Postal Service data.

As part of this analysis, we ran regressions on individual metrics (for example, number
of grievances) as well as for combinations of multiple metrics (for example, grievances,
WTIL, and customer complaints). Additional information on this data and our
methodology is included in Appendix A.

Conclusion

We found no relationship between Post Office operational performance and Business
Connect performance for the variables we selected; therefore, neither lower nor higher
performance in these Post Office operational areas necessarily precludes postmasters
from achieving success in their Business Connect activities.

Therefore we are not making any recommendations in this report. Management agreed
with this report and they are not required and did not choose to comment on its contents
since there were no recommendations.

Relationship Between Operational Factors and Business Connect

Our statistical analysis shows no causal relationship between the selected Post Office
operational factors and Business Connect performance. In regression analysis, values


                                               2
 Relationship Between Business Connect                                                            MS-MA-14-001
  and Post Office Performance


 demonstrate correlation4 as they approach either 1 or -1. A value of 0 means the
 variables tend to be unrelated — that is, there is no relationship between movement in
 one variable and movement in the other. Table 1 shows correlation results with a
 maximum value of 0.223 and a minimum value of -0.185.

                                Table 1: Summary of Correlation Results

                                                                         Correlation
                                                                                   Estimated
                                                               Average              Annual
         Operational Factors                                   Revenue             Revenue
                                              Office              per                from        Number of
                                             Business          Business            Business      Business
                                             Connect           Connect              Connect       Connect
                                              Score             Activity           Activities    Activities
 Individual Factors
 Grievances                                        0.023              0.100             0.073            0.008
 Carriers Returning After 5 p.m.                  -0.097              0.038             0.032           -0.096
 Unscheduled Leave                                 0.026              0.040             0.057            0.008
 WTIL                                             -0.015              0.035             0.046           -0.023
 Retail Window Staffing
 Efficiency                                       -0.185             -0.068            -0.118           -0.029
 Overtime                                          0.223              0.060             0.140            0.044
 Penalty Overtime                                 -0.017              0.015             0.033           -0.029
 Complaints                                        0.106              0.080             0.147            0.057

 Combinations of Factors
 Average Office Score For All
 Factors                                           0.071             -0.024            -0.038           0.055
 Average Office Score For
 Unscheduled
 Leave/WTIL/Retail Window
 Staffing Efficiency                               0.013             -0.028            -0.046           0.003
 Average Office Score For
 Carriers Returning After
 5 p.m./Overtime                                    0.05             -0.044            -0.059           0.064
 Average Office Score For
 Grievances/WTIL/Complaints                       -0.014             -0.036              -0.07          -0.007
Source: OIG analysis of Postal Service data.

 Therefore, neither lower nor higher performance in the Post Office operational areas
 cited in Table 1 necessarily precludes postmasters from achieving success in their
 Business Connect activities.


 4
     A measure of the extent to which two measurement variables "vary together."


                                                           3
Relationship Between Business Connect                                                                MS-MA-14-001
 and Post Office Performance



                                 Appendix A: Additional Information

Background

Postmasters play a key role in growing Postal Service mail volume and revenue. They
are typically at the forefront of interactions with local small business customers, either
by providing service, addressing service issues, or selling Postal Service products and
services. The Postal Service’s Business Connect program was designed to engage
postmasters, station managers, and branch managers in generating revenue and
strengthening relationships with small business customers. Specifically, postmasters
are to conduct a certain number of activities — face-to-face meetings with a business
customer or a group of customers about Postal Service products and services — each
year. These targets vary by Post Office level, with those postmasters at Level 18–22
offices expected to conduct two activities per month and those at Level 23 and higher
offices expected to conduct three activities per month.5 The 17,658 postmasters at
Level 18 and above post offices reported 404,367 total activities in FY 2012. When
postmasters have a business connect meeting that results in a sale, they are expected
to report the anticipated revenue from that sale into the Business Connect system.
Postmasters reported about $265 million in estimated annualized revenue through the
Business Connect program in FY 2012 and about $247 million in FY 2013.

As part of the OIG’s June 2013 report (Small Business Growth), we surveyed
9,073 postmasters at Level 18 and above post offices regarding their Business Connect
activities. Forty-nine percent of the 2,549 postmasters who responded to the survey
said they do not have time to pursue new small business revenue. We also met with
34 judgmentally selected postmasters to follow up on resource limitations identified in
the survey.6 These postmasters raised issues about constraints placed on the time they
had available to generate revenue, including being required to provide support for, or
monitor, window clerks; perform lobby sweeps;7 or input customer complaints.

Postal Service officials said that many postmasters do not have time to interact with
small businesses because of operational priorities or because they are not equipped or
trained to do so. They said the actions postmasters identified as putting time constraints
on them are important for operational and management purposes and not performing
them would hurt performance.




5
  The Postal Service determines Post Office levels based on factors such as workload, revenue, delivery points, and
number of employees – generally, the higher the level, the larger the office.
6
  We selected high- and low-performing postmasters based on the revenue generated and the number of Business
Connect activities they reported.
7
  Lobby sweeps should be conducted when lines are long due to retail associates conducting lengthy transactions. A
supervisor, postmaster, or retail associate can conduct a lobby sweep for customers who are conducting non-
revenue transactions, such as picking up mail.


                                                         4
Relationship Between Business Connect                                           MS-MA-14-001
 and Post Office Performance


Objective, Scope, and Methodology

Our objective was to evaluate the relationship between Post Office performance and
Business Connect performance. To accomplish our objective, we reviewed information
from Postal Service officials and conducted our own analysis to determine what factors
for each category (office operational and Business Connect performance) should be
included in our analysis. Specifically, we selected factors based on the following:

   Post Office operational performance: factors that could reasonably be expected to
    impact a postmaster's ability and time to conduct Business Connect activities.

   Business Connect performance: factors that reflect the performance of postmasters
    in conducting Business Connect activities.

We selected the following Post Office operational factors for use in our analysis:

   Number of grievances: total number of grievances for each office by finance number.

   Carriers returning after 5 p.m: percentage of carriers returning after 5 p.m. for each
    office by finance number.

   Unscheduled leave: ratio of unscheduled leave hours to total workhours for each
    office by finance number.

   WTIL: score and time for each office by finance number.

   Retail window staffing efficiency: total retail window hours earned compared to the
    actual workhours for each office by finance number.

   Overtime: ratio of overtime hours to total workhours for each office by finance
    number.

   Penalty overtime: ratio of penalty overtime hours to total workhours for each office
    by finance number.

   Complaints: total number of complaints received for each office by ZIP Code.

We selected the following Business Connect factors for use in our analysis:

   Number of Business Connect activities completed.

   Estimated annual revenue.

   Average revenue per Business Connect activity — we calculated this by dividing the
    estimated annual revenue by the number of Business Connect activities for each
    Post Office.



                                             5
Relationship Between Business Connect                                        MS-MA-14-001
 and Post Office Performance


Next, we gathered FY 2012 data by office finance number for each of the
aforementioned factors and ranked the offices by each factor. Then we used regression
analysis to determine whether there were relationships (correlations) between the
various Post Office operational factors and Business Connect factors. We ran
regressions on individual metrics (for example, number of grievances) and combinations
of multiple metrics (for example, grievances, WTIL, and customer complaints).

We conducted this review from July through December 2013 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on December 4, 2013.

We assessed the reliability of Business Connect and operational data by reviewing
existing information about the data and the systems that produced them. We
determined the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG issued Small Business Growth (Report Number MS-AR-13-009, dated
June 20, 2013), which evaluated the effectiveness of the Postal Service’s efforts to grow
small business revenue and identify opportunities for growth. The report concluded that
postmasters and sales staff were not always effective because the Postal Service has
not made generating small business revenue a high priority for these groups. The OIG
made four recommendations, including recommending that the Postal Service develop
a strategy to increase the priority that postmasters and sales staff place on generating
small business revenue. The report estimated implementing the recommendations
could result in $810.3 million in increased revenue over 3 years. Management
disagreed with the recommendation above and the monetary impact.




                                            6
